                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL

   .                                                    OFFICE OF INVESTIGATIONS

    o                                          CLOSEOUT MEMORANDUM                                  b




 Case Number: 1-06-06-0014
                                                                                     11         Page I



          This investigation was opened as a result of an anonymous complaint that a university1 ha
          "award" program2 where if faculty will shift grant money to pay salaries, the university wi
          back a portion of the amount as a monetary award to the faculty member.

          Investigation, which included review of the awardee7sA-1 33 audit report and documents
          provided by the awardee for the two NSF awards which had salary support, disclosed no '
          information to substantiate the allegation or to indicate that NSF award funds had been
          inappropriately spent.

          In light of the above, no further investigative effort is necessary in this matter.

          Accordingly, this case is closed.




NSF OIG Form 2 ( 1 1/02)
